2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

a E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

CURT DANIELS and INDIAN CREEK CORPORATION,
Petitioners,
v.
JOHN HOLTZ, personally and JOHN HOLTZ, dba
WSH PROPERTIES, LLC, HUNTERS RETREAT, LLC,
and NAVAJO ASSOCIATES, LLC,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6086 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of June, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska Zz. Chk
RENEE J. GOSS 9. ( draw i

‘My Comm. Exp. September 5, 2023

 

Notary Public Affiant 40990
